Audit of NSF’s Travel Card Program




     National Science Foundation
     Office of Inspector General

          September 30, 2005
            OIG 05-2-012
Table of Contents
          Introduction….……………..……………………………..………….…1

          Objectives, Scope, and Methodology..…..…………………….….…3

          Results of Audit…….………………..……………………..…………..5

          Appendix A: Agency Response...…………………………..………14

          Appendix B: Categories of Questionable Travel Card
                      Transactions…………………………………………..17
Introduction

                  The Travel and Transportation Reform Act of 19981 (the Act)
                  requires Federal employees to use travel charge cards for all
                  payments of expenses related to official Government travel,
                  including hotels, transportation costs, and meals. By consolidating
                  travel expenditures with a single credit card vendor and by
                  streamlining the process for advancing travel funds to federal
                  employees, agencies reduce administrative costs associated with
                  processing federal travel.

                  The General Services Administration (GSA) issues the Federal
                  Travel Regulation (FTR) that implements the requirements of the
                  Act, and administers government travel cards through its SmartPay
                  program. Each agency selects one of the five banks contracted by
                  GSA as their travel card provider and negotiates its own task order
                  under the SmartPay master contract. The task order identifies the
                  specific charge card services the selected bank will provide the
                  agency, and documents the agreed upon fees, including additional
                  negotiated rebate percentages.

                  The master contract allows each agency to receive rebates based
                  on purchase dollar volume and payment performance. The
                  minimum rebate percentage is .06 percent of total purchases,
                  traveler’s checks, and automated teller machine (ATM) transactions
                  made with the government travel cards. Uncollected account
                  balances reduce the purchase dollar volume, thus reducing the
                  amount of the agency’s rebate. The bank also pays a portion of the
                  agency’s rebate to GSA as a service fee. Although generally
                  minimal when compared to an agency’s total official travel
                  expenditures, rebates nevertheless help to reduce agencies’ travel
                  costs.

                  Upon selection, the bank vendor issues individual travel charge
                  cards to agency employees and enters into a credit card agreement
                  directly with the employee.2 Under the agreement, the employee is
                  responsible for seeking reimbursement for the travel costs from the
                  agency and paying the credit card bill to the bank. Federal
                  standards of conduct require federal employees to pay their debts
                  in a timely manner and federal travel regulations specifically
                  prohibit the use of an individual’s travel card for any purpose other

1
  Travel and Transportation Reform Act of 1998, Public Law 105-264.
2
  Each agency also has the option of having a centrally billed travel card account. Unlike with individual
travel charge cards, under this option, the agency itself is responsible for payment of the centrally billed
account, rather than the employee.


                                                       1
                 than official travel. Once the employee uses the travel card, the
                 employee must pay his own balance, in full and on time,
                 presumably from monies the agency has paid to the individual as a
                 result of his request for reimbursement. However, because the
                 employee is the responsible party on the individual account, the
                 agency is under no obligation to pay the bill; the employee must
                 pay the travel card bill, even if he has not yet received
                 reimbursement from the agency.3 Agency Program Coordinators
                 (APCs) are responsible for monitoring the travel card accounts to
                 verify these accounts are paid in a timely manner.

                 Delinquency and nonpayment of an individual’s account are serious
                 matters for both the individual and the agency. Delinquent
                 accounts that are not the subject of a billing dispute may harm the
                 individual’s credit rating and the bank may suspend or even cancel
                 the individual’s travel card if the outstanding account balance
                 becomes overdue. Furthermore, such a suspension or cancellation
                 may affect the employee’s ability to travel on official business, and
                 thus may impair the individual’s ability to perform his official duties.

                 While responsibility for payment rests with the individual, agencies
                 also have a responsibility, as well as a financial incentive, to ensure
                 that accounts are paid timely and in full. GSA’s master contract
                 describes the agencies’ travel card program responsibilities. These
                 include ensuring that cardholders use the card only for authorized
                 purposes by monitoring account activity; and managing
                 delinquencies and misuse by notifying the employee and
                 management of delinquent accounts, taking appropriate disciplinary
                 action, and, as a last resort, collecting the overdue amount from the
                 employee through salary offsets. Additionally, the negotiated
                 rebate provides a financial incentive for the agency to act to ensure
                 that its employees’ overdue balances are paid in full. Because
                 unpaid account balances reduce the amount of the rebate the
                 agency receives, it is important that the agency minimize delinquent
                 accounts. Monitoring and managing delinquencies also helps the
                 agency avoid potential negative publicity that comes with unpaid
                 accounts.

                 Under GSA’s SmartPay Program, the National Science Foundation
                 (NSF) has contracted with Bank of America (BoA) for its travel card
                 services. Approximately 1,000 NSF employees have a travel card


3
  The Federal Travel Regulation requires employees to submit requests for reimbursement within five days
of completing their travel. It also requires agencies to reimburse an employee within 30 days of the
employee submitting a proper claim for reimbursement to the approving official. If agencies do not
reimburse the employee within the 30-day timeframe, the agency must pay interest to the employee for the
late payment.


                                                    2
         and incur approximately $2.5 million in charges a year. NSF
         earned a rebate in FY 2004 amounting to approximately $12,590.


         Administration of Travel Card Program

         Within NSF, the Office of Budget, Finance, and Award
         Management’s Division of Financial Management (DFM) is
         responsible for the agency’s financial policy and financial
         management, including the management of its travel card program.
         DFM has one full-time employee designated as the primary APC,
         who is expected to spend 50 percent of her time administering the
         travel card program. The APC opens and closes travel card
         accounts, maintains and updates employee account information,
         monitors employee accounts for misuse and delinquency, sends
         misuse and delinquency notification letters, acts as the primary
         liaison between the cardholders and the issuing bank, and answers
         cardholders questions on the proper use of travel card. The APC
         also ensures all 1,019 cardholders at NSF complete the GSA web-
         based travel card training. In addition to the primary APC, DFM
         has designated two alternate APCs, who assist the primary APC in
         opening and closing employees’ travel card accounts and monitor
         the primary APC’s personal travel card account to ensure it is used
         appropriately and payments are current.


Objectives, Scope, and Methodology
         The objectives of this audit were to determine if NSF:

               •   Adequately manages its travel card accounts to ensure
                   that cardholders are using their government travel cards
                   properly and paying their travel card accounts in a timely
                   fashion; and
               •   Properly monitors its Agency Program Coordinators’
                   travel card accounts.

         To accomplish our audit objectives we obtained access to Bank of
         America’s EAGLS credit card system for NSF cardholders, and,
         using automated auditing software, identified 6,218 credit card
         transactions occurring during the period March 1, 2004 through
         August 31, 2004, valued at $1.2 million. We reviewed 100 percent
         of these transactions for appropriateness, and compared the
         transactions to NSF’s travel order database to determine whether
         employees incurred the expenses in conjunction with official
         government travel. For the 942 transactions that initially appeared
         questionable, we requested travel orders, transaction receipts, and

                                    3
other documentation from the responsible cardholders. We did not
further research 51 of these transactions because the cardholder
was no longer with the agency.

To determine if NSF cardholders pay their travel card account bills
timely, we reviewed Bank of America’s delinquency reports for NSF
from January 2004 to August 2004. From these reports, we
identified all accounts having overdue balances. We also
identified the number of accounts that Bank of America has
charged-off for non-payment during that time.

Additionally, to determine if Agency Program Coordinators were
properly closing separated employees’ accounts, we obtained a list
of individuals who separated from the agency as of January 1,
2004, through August 20, 2004, and compared it to the list of
current cardholders to identify individuals that had departed NSF
but still had open travel card accounts.

Finally, to determine if there is adequate oversight of the primary
APC’s personal travel card account, we interviewed the APC’s
supervisor, the Chief of the Cash Management and External
Accounting Branch, to determine how NSF monitors the APC’s
travel card account. In addition, we compared the APC’s travel
orders and travel card transactions to confirm that the transactions
were for valid government purposes.

We conducted our audit work between August 2004 and
September 2005, in accordance with the Comptroller General’s
standards for audits contained in the Government Auditing
Standards.




                           4
Results of Audit
          Overall, NSF has effective controls to ensure that its personnel
          properly use their government travel cards, as required by the
          Federal Travel Regulation (FTR) and current NSF policies. NSF
          effectively monitors travel card transactions by investigating
          transactions that do not appear proper, according to current travel
          policies.

          In addition, NSF proactively monitors its employees’ travel card
          accounts to ensure that the accounts do not become delinquent.
          NSF identifies overdue accounts and takes appropriate action to
          address the few accounts that have overdue balances. As a result,
          Bank of America wrote off only one delinquent account, totaling
          $2,623, during fiscal year 2004. NSF took proper and timely
          actions to work with the employee to ensure the bill was paid, but
          the employee left the agency before NSF could initiate collection
          actions.

          NSF also properly monitors the primary and alternate Agency
          Program Coordinators’ (APC) accounts to ensure the APCs do not
          use their oversight position for personal benefit. Unless an APC
          has an approved travel order, NSF maintains the APC’s travel card
          accounts in an inactive status. An alternate APC or the APCs’
          supervisor reviews all of the APC’s travel card transactions.

          Since our last audit in 2002, NSF has expanded its oversight of
          travel card activity to include monitoring, detecting, and addressing
          employees’ unauthorized use of travel cards. It has incorporated
          procedures that include manually reviewing all ATM transactions to
          ensure they were associated with approved travel orders.
          Additionally, the primary APC monitors travel card transactions for
          proper use, investigates questionable transactions, identifies and
          notifies cardholders with overdue accounts, and, when necessary,
          initiates wage garnishment actions to collect aged overdue
          accounts. The APC spends close to half of her time on the travel
          card program responding to cardholders and agency Administrative
          Officers on such questions as whether or not a particular use of a
          travel card is permissible.

          Nevertheless, NSF can make several improvements in its travel
          card program. Although less than 1 percent ($6,068) was for
          personal use, our review found that for 10 percent ($113,413) of
          NSF’s $1.2 million of travel card transactions incurred during the 6-
          month period March through August 2004, NSF cardholders
          improperly used their travel cards to pay for items that were for


                                     5
         personal use, not pre-approved, or should have been purchased
         through other procurement instruments. To address these issues,
         NSF should:

            1. Obtain automated software to improve its monitoring
               capabilities;
            2. Clarify its policies regarding the use of travel cards to pay
               for:
                    • Expenses not related to temporary duty travel;
                    • Non-contract service fees without advanced
                       approvals; and
                    • Travel expenses incurred by NSF employees while on
                       temporary assignment with another federal agency;
                       and
            3. Improve its separation procedures to ensure that all
               cardholders’ travel card accounts are closed timely, when
               personnel depart from the agency.

         Each of these improvements is discussed separately below.


Improvements Needed in NSF’s Monitoring Procedures for
Detecting Unauthorized Travel Card Transactions
         The FTR and NSF policies allow government travel charge cards to
         be used only for authorized official travel and travel-related
         expenses. These policies also require proper written or electronic
         authorization, in the form of a travel order, prior to a cardholder
         incurring any travel related obligations or expenses, including
         registration fees for out-of-town conferences and deposits for hotel
         reservations.

         Nevertheless, NSF employees generated 69 transactions, valued at
         $6,068, for personal items and services that were improperly
         charged to government travel cards. These transactions included
         purchases at grocery stores, restaurants, hotels, and gas stations,
         primarily within the local commuting area. Additionally, employees
         incurred 218 transactions, valued at $81,951, for prepayments of
         conference registration fees, hotels, and transportation expenses,
         prior to obtaining proper authorization through approved travel
         orders. In monitoring the travel card transactions, the APC
         identified and questioned only 40 of the 69 personal use
         transactions, and did not identify or question any of the 218
         prepayments.




                                   6
         At the time of our audit, NSF did not have the capability to easily
         monitor a large number of travel card transactions to detect, nor did
         it have the capability to easily monitor and detect when its
         employees have used their government travel cards without valid
         travel orders. The APC manually reviewed all reports of
         transactions from Bank of America’s EAGLS database, and
         followed up on those that she considered questionable.
         Furthermore, because travel orders are maintained in a separate
         NSF database, the APC had no efficient means to link and
         compare these two databases to ensure that all travel card
         transactions were associated with approved travel orders.

         To improve and simplify the identification of such transactions, we
         suggested that NSF consider using a software package to perform
         a quicker, more systematic review of travel card transactions. With
         this type of software, the APC can also readily match and compare
         the two databases to identify transactions without valid travel
         orders. NSF has purchased the software and now uses it for their
         travel card monitoring.


Clarifications Needed in NSF’s Policy Regarding Proper Use
of Travel Cards
         Our review identified three issues that NSF should clarify in its
         travel card policies, to ensure that employees understand how to
         properly use their travel cards.

         Non-travel Related Business Expenses: According to the FTR
         and NSF policies, the government travel card may only be used for
         expenses related to official government travel associated with
         approved travel orders. The General Services Administration
         (GSA), which has responsibility for issuing and implementing the
         FTR, defines official government travel as travel when the individual
         is outside the local area and is eligible to receive per diem and
         lodging. Thus, when an individual’s travel on official business does
         not meet the definition of official government travel, it is considered
         local travel, and NSF policy requires expenses incurred for local
         travel to be reimbursed through a Standard Form 1164 (SF 1164),
         Claim for Reimbursement for Expenditures on Official Business.
         Local travel for most NSF personnel encompasses the counties of
         Prince Georges and Montgomery in Maryland, and Arlington,
         Loudoun and Fairfax in Virginia; and the cities of Washington, DC,
         Alexandria, Falls Church, and Fairfax.



                                    7
               NSF employees generated 51 transactions valued at $18,310, for
               payments of local conferences, training, and other business
               expenses associated with local travel. Specifically, 43 of the 51
               local transactions, valued at $17,756, were expenses for local
               conferences or training. The remaining eight transactions were for
               other business expenses that were incurred locally, such as parking
               fees and meal expenses incurred while attending local training.
               The APC identified and questioned only 3 of these 51 transactions.
               In addition, NSF employees generated 4 transactions valued at
               $1,000 that could possibly be legitimate business expenses, but
               even if legitimate, were not related to official government travel.
               Three of these transactions were for copying expenses, and one
               was for a potential employee’s pre-employment physical. If
               authorized, these expenses should have been paid for using a
               purchase order, purchase charge card, or reimbursed through the
               SF 1164. Three of these four transactions were identified and
               questioned by the APC because they occurred outside of the local
               area while the employee was on personal leave.

               Although it has policies for reimbursement of local travel expenses,
               NSF does not have a policy that specifically addresses the use of
               travel cards to pay for local training, conferences or other local
               business expenses. Therefore, even though such expenses are
               not associated with approved travel orders and thus, not
               appropriate for payment with government travel cards, monitoring
               procedures do not include steps to identify travel card transactions
               for local conferences, training, and other local business expenses.

               Reimbursement of Service Fees Without Advance Approval:
               The FTR and NSF policies require NSF personnel to arrange travel
               through the agency’s Travel Management Contractor (TMC) or the
               agency’s automated travel system. This policy helps to ensure that
               the government is able to obtain lower rates and refundable fares,
               and avoid additional service fees and cancellation penalties. Even
               in those instances where a traveler may locate an acceptable non-
               refundable fare offered by a non-contract carrier for a lower fee,
               NSF policy requires the traveler to purchase the ticket through the
               TMC after obtaining approval from NSF’s Division of Administrative
               Services4. Without prior approval, the traveler is responsible for
               any additional costs resulting from the failure to use the TMC or the
               automated travel system. These costs include service fees such as
               those charged by online travel booking services, (i.e., Travelocity,

4
 The Division of Administrative Services, within NSF’s Office of Information Resource
Management, is responsible for overseeing NSF’s contract with its Travel Management
Contractor, SATO.


                                               8
                Orbitz, or Expedia, Inc.), and penalties incurred to change or cancel
                reservations. Thus, following this policy ensures that travelers are
                complying with federal travel regulations and reduces financial risk
                to both NSF and the traveler.

                However, NSF does not consistently enforce these requirements.
                In 20 transactions totaling $323, NSF personnel charged their
                government travel card for payment of travel reservation fees
                incurred from sources other than the agency’s TMC. The APC did
                not question 14 of the 20 transactions, nor did she review the
                related travel transactions to ensure that reimbursement limitations
                were properly applied.

                Other Federal Agency Travel Charged to NSF Travel Cards:
                NSF has several employees who are on temporary assignments to
                other federal agencies, and have occasion to travel for the
                borrowing agencies. These 5 employees charged 32 transactions
                on NSF travel cards, amounting to $5,762, while traveling on orders
                processed through the other agencies. Two of these employees
                were military reservists on short-term, temporary active duty.

                NSF does not have a policy addressing how such transactions
                should be handled. However, the Government Accountability
                Office (GAO), which conducts audits of the Department of
                Defense’s and other agencies’ travel card programs, has a policy
                that requires its military reservists and other temporarily assigned
                employees to use the other agencies’ travel cards when traveling
                on official business for those agencies.

                The GAO policy avoids several issues that arise when travel
                expenses for one agency are charged using the travel card of
                another agency. First, the lending agency’s APC is unable to
                monitor these travel expenses because both the travel orders and
                the associated reimbursements are processed and approved
                through the borrowing agency. In this situation, NSF’s APC would
                have to obtain copies of the approved5 travel orders from the
                borrowing agency, in order to verify that the expenses charged
                were proper. Without the approved orders, the APC is unable to
                know that the credit card is being used for official business, and not
                for personal use. Additionally, GAO pointed out that these
5
  Many agencies now use electronic travel systems, making it difficult to verify that travel orders
have been properly approved without accessing the actual electronic system. To ensure
transactions are proper and justified, the APC must compare the travel card transactions to the
approved travel orders in the electronic system; a copy of the travel orders with a typed name of
an approving official is not sufficient. When travel is approved through another agency but
charged on an NSF travel card, NSF’s APC cannot properly monitor the travel card charges
because she cannot access the other agency’s travel system.


                                                 9
                  transactions could result in a situation where the lending agency is
                  improperly receiving supplements to its appropriations6 because the
                  transactions inflate the agency’s travel card volume used to
                  calculate its rebate. Finally, if the borrowing agency’s travel card is
                  issued through a different bankcard vendor than the lending
                  agency, the wrong vendor may be paying the rebate.

                  We suggest that NSF consider implementing a policy similar to
                  GAO’s that requires employees on temporary duty at other
                  agencies to use the borrowing agencies’ travel cards for authorized
                  non-NSF travel.


NSF Needs to Close Travel Card Accounts When Personnel
Leave the Agency
                  The APC did not always timely terminate individual travel card
                  accounts when employees and visiting personnel separated from
                  the agency. NSF had 141 employees and visiting personnel leave
                  the agency during the period January 1, 2004 through August 20,
                  2004. Travel card accounts for 10 of these separated employees
                  had not been closed as of August 20, 2004.

                  NSF’s separation procedures require the employee’s Administrative
                  Officer to collect or destroy the employee’s travel card at the time
                  the employee completes the separation clearance process. At that
                  time, the Administrative Officer notifies the APC to immediately
                  terminate the account. For all 10 travel card accounts that had not
                  been properly closed, the APC had not received timely notification
                  from NSF’s Administrative Officers that the employees had
                  separated. The 10 accounts remained open for an average of 99
                  days after the employees separated.

                  Travel card accounts that are not properly closed when employees
                  or visiting personnel separate, leave the agency and the employees
                  at risk for fraudulent use of the travel card.

                  NSF’s separation process did not adequately ensure that the APC
                  was promptly notified of the separation and that the employee’s
                  travel card account was closed. Accordingly, during the audit, we
                  discussed with NSF the need to revise its employee clearance
                  process so that the APC must sign the employee’s separation
                  papers, confirming that the travel card account has been closed.
                  Under this process, the APC would be included in the automated

6
    Supplementing federal appropriations is a violation of 31 USC 1301(a).


                                                 10
         list of individuals who are electronically notified of an employee’s
         upcoming departure by the employee’s Administrative Officer. In
         addition, the separating employee would need to obtain the APC’s
         signature on his or her clearance forms. To further ensure that
         separated employees’ accounts are closed, a second, additional list
         containing the names of separated employees and visiting
         personnel and the dates they separated would be prepared by the
         Division of Human Resource Management and sent monthly to the
         APC.

         During our audit, NSF implemented all of these procedures, and
         our audit confirmed that the revised procedures were implemented
         and working effectively.


Conclusion and Other Matters for Consideration
         NSF did not investigate 341 of the 394 questionable transactions
         (87 percent) because NSF either does not have a policy addressing
         the particular situation, does not consistently enforce the policies it
         has, or does not have the ability to reasonably compare travel card
         transactions to approved travel orders. Thus, monitoring
         procedures do not include steps to identify these questionable
         transactions.

         Additionally, NSF needs to reconsider the amount of resources it
         expends on implementing and monitoring its travel card program.
         NSF officials expect approximately 50 percent of one person’s time
         to be spent on APC activities. In reality, the primary APC, who has
         several other important, non-travel related responsibilities,
         estimates she spends close to 85 percent of her time on the travel
         card program. Close to half of that time is spent responding to
         general and specific questions from travelers and agency
         Administrative Officers. Additionally, when the primary APC is on
         leave or otherwise unavailable, the alternate APCs do not assume
         the primary APC’s duties. Consequently, quality is likely to suffer,
         despite the APC’s best efforts. Clarifying policies should help
         reduce that burden. Using automated methods to monitor travel
         card accounts should also help reduce the burden, as it should be
         easier to identify questionable transactions. However, it is also
         possible that using automated methods will add to the APC’s
         workload as these methods are likely to increase the number of
         questionable transactions that are identified and must be
         investigated by the APC.

         Nevertheless, to ensure the best coverage and sharing of the


                                    11
        APC’s specialized knowledge, NSF should consider redistributing
        the primary APC’s responsibilities, or supplementing its APC staff.
        Implementing and enforcing travel card policies by monitoring travel
        card transactions ensures the government travel cards are used
        only for official government travel expenses. In addition, enforcing
        requirements that government cardholders obtain authorization,
        prior to incurring travel card charges, guarantees funds will be
        available to pay for the expenses and ensures that the cardholders
        will not incur unnecessary costs if travel plans are changed or
        cancelled. Implementing proper policies also helps prevent
        unauthorized use of federal travel cards and ensures that
        employees do not use their official positions for financial gain.


Recommendations
        To improve the effectiveness of NSF’s travel card program, we
        recommend the Director of the Office of Budget, Finance, and
        Award Management take the following actions:

        1-1)   Consistently enforce NSF’s policies that require NSF
               employees and visiting personnel to:
               • Obtain approved travel orders prior to initiating
                 transactions, including prepayments for hotel
                 reservations; and
               • Require personnel to use the Travel Management
                 Contractor for travel reservations unless they have
                 obtained proper approval.

        1-2)   Issue a travel policy that informs employees and visiting
               personnel that they must obtain approved travel orders prior
               to using their travel card, and that local training,
               conferences, or other non-official travel related business
               expenses must be paid for or reimbursed using a different
               means.

        1-3)   Improve monitoring procedures to consistently identify and
               investigate all questionable transactions to determine if
               cardholders are using the travel card appropriately.
               Additionally, investigate the 29 personal use transactions
               identified during the audit that NSF had not questioned to
               recover the funds as appropriate.




                                  12
Agency Comments

NSF concurred with each of the audit recommendations, and we
have included their response, in its entirety, as Appendix A.




                        13
Appendix A: Agency Response




                         14
15
16
Appendix B: Categories of Questionable Travel Card
Transactions

         In this audit, we identified 942 of 6,218 total transactions that
         required additional research to determine if they were proper
         charges. Questionable transactions include prepayments of travel
         expenses without an approved travel order, purchases of goods or
         services not related to official government business, and purchases
         to cover local rather than temporary duty travel. Of these 942
         transactions, additional research showed that 497 were proper.
         These included transactions associated with blanket travel orders
         for frequent travelers that were not maintained in the travel order
         database, and travel orders that were not properly completed. We
         did not research 51 of the 942 questionable transactions because
         the cardholders were no longer with the agency. The remaining
         394 questionable transactions are grouped into 5 categories.

            •   Personal use of the government travel card – 69;
            •   Prepayments of hotel reservations, conference registrations,
                and other travel-related expenses made without approved
                travel orders – 218;
            •   Official government business expenses that should have
                been purchased or reimbursed using a different method –
                55;
            •   Service fees for travel reservations made outside of the
                agency’s Travel Management Contractor (TMC) without
                prior approval from the appropriate NSF official – 20; and
            •   Official travel for other federal agencies that was improperly
                charged to NSF’s travel card – 32.




                                   17
